                                                                                           Office of Inspector General

                                                                                           U.S. Department of Homeland Security
                                                                                           Dallas Field Office, Office of Audits
                                                                                           3900 Karina Street, Room 224
                                                                                           Denton, Texas 76208




                                                 May 17, 2005


MEMORANDUM FOR:                         Gary Jones
                                        Acting Regional Director, FEMA Region VI



FROM:                                   Tonda L. Hadley
                                        Field Office Director

SUBJECT:                                Central Rural Electric Cooperative, Inc.
                                        Stillwater, Oklahoma
                                        FEMA Disaster Number 1401-DR-OK
                                        Public Assistance Identification Number 000-U05EC-00
                                        Audit Report Number DD-06-05

The Office of Inspector General (OIG) audited public assistance funds awarded to the Central Rural
Electric Cooperative (CREC), located in Stillwater, Oklahoma. The objective of the audit was to
determine whether CREC accounted for and expended Federal Emergency Management Agency
(FEMA) funds according to federal regulations and FEMA guidelines.

CREC received an award of $5.45 million from the State of Oklahoma, Oklahoma Department of
Civil Emergency Management (ODCEM), a FEMA grantee, for damages caused by a severe winter
ice storm during the period January 30, 2002, through February 11, 2002. The award provided 75
percent FEMA funding for three large projects1. We audited all projects under the award (see
Exhibit). The audit covered the period January 30, 2002, to May 13, 2004, during which CREC
claimed $5.45 million and ODCEM disbursed $4.77 million in FEMA funds for direct program
costs.

We performed the audit under the authority of the Inspector General Act of 1978, as amended, and
according to generally accepted government auditing standards. The audit included tests of CREC’s
accounting records, judgmental samples generally based on dollar value of expenditures, and other
auditing procedures considered necessary to accomplish the audit objective.




1
    Federal regulations in effect at the time of the disaster set the large project threshold at $52,000.
                                        RESULTS OF AUDIT

CREC did not account for and expend FEMA funds according to federal regulations and FEMA
guidelines. Specifically, CREC awarded non-competitive time-and-materials contracts for
$3,239,787 that did not comply with federal procurement standards. As a result, fair and open
competition did not occur and FEMA has no assurance that contract costs claimed were reasonable.
Further, we questioned $1,875,324 ($1,406,493 FEMA share) of the total $5,449,499 claimed (34.41
percent) for costs related to improperly procured contracts ($1,802,562) and ineligible materials
costs ($72,762).

Finding A: Improper Contracting During and After the Emergency Period

CREC did not follow federal procurement standards or FEMA guidelines in awarding contracts
totaling $3,239,787 for utility and debris removal work. As a result, fair and open competition did
not occur and FEMA has no assurance that contract costs claimed were reasonable. We questioned
$1,802,562 of contract costs claimed for work performed after February 27, 2002, when power was
fully restored to all CREC customers. We questioned these costs because exigent circumstances no
longer existed to justify CREC’s non-compliance with federal procurement standards.

Federal procurement standards at 44 CFR 13.36:

       •   Require the performance of procurement transactions in a manner providing full and open
           competition except under certain circumstances. (13.36(c)).
       •   Allow procurement by noncompetitive proposals only when the award of a contract is
           infeasible under small purchase procedures [$100,000 or less], sealed bids, or competitive
           proposals and certain circumstances apply. One acceptable circumstance is when the
           public exigency or emergency for the requirement will not permit a delay resulting from
           competitive solicitation. (13.36(d)(4)(i)).
       •   Require that sub-grantees maintain records sufficient to detail the significant history of
           the procurement, including the rationale for the method of procurement, the basis for
           contractor selection, and basis for the contract price. (13.36(b)(9)).
       •   Require subgrantees to maintain a contract administration system that ensures contractors
           perform in accordance with the terms, conditions, and specifications of their contracts or
           purchase orders. (13.36(b)(2)).
       •   Prohibit the use of time-and-material-type contracts unless a determination is made that
           no other contract is suitable and provided that the contract include a ceiling price that the
           contractor exceeds at its own risk. (13.36(b)(10)).
       •   Require a cost analysis when adequate price competition is lacking. (13.36(f)(1)).
       •   Require profit to be negotiated as a separate element of the price for each contract in
           which there is no price competition and in all cases where cost analysis is performed.
           (13.36(f)(2)).

To perform disaster work, CREC awarded five large-dollar (over $100,000) time-and-material
contracts totaling $3,239,787 and procured services from nine small-dollar vendors totaling
$213,846. For the five large-dollar contracts, CREC did not (1) provide evidence of competition, (2)
maintain records sufficient to detail its rationale for contractor selection, (3) perform a cost or price


                                                    2
analysis, (4) justify the use of time-and-material type contracts, (5) negotiate profit as a separate
element of the price, or (6) provide for a not-to-exceed cost ceiling.

Before the disaster, CREC awarded two of the large-dollar contracts to perform routine and planned
non-disaster work. One contract was for work on a unit basis for line-extension construction work,
billable as units of productions (electrical pole sub-assemblies), and included supplementary hourly
labor and equipment rates for use in the event of an emergency. The other pre-disaster contract was
to provide right-of-way clearing, billable in linear feet, and also provided for the use of hourly labor
and equipment rates for disaster cleanup and construction. Although CREC provided limited
evidence that it may have performed an incomplete price comparison of line extension prices for the
line extension construction contract negotiated, we found no evidence that the supplementary hourly
labor and equipment rates used in the billing for disaster cleanup and construction were
competitively procured. In fact, the emergency rates negotiated in the line extension construction
contract did not stipulate the negotiated labor rates, stating only that CREC would pay for
construction labor at the “actual rate of pay plus 100 percent of total labor cost.” After the disaster,
CREC procured the three other large-dollar contractors without competition at hourly rates for labor
and equipment. For these three contractors, CREC used verbal agreements and informal rate sheets
rather than written contracts.

Further, CREC could not provide evidence of contract monitoring on any of the five contracts.
Although a CREC official stated they assigned a monitor for every four or five contractor crews
working, CREC did not maintain logs or records of contractor activity to compare to contractor
billings. Therefore, even if contract monitoring occurred, it was not adequate. FEMA’s Public
Assistance Debris Management Guide (FEMA 325, April 1999), p.28, states that supervision of
time-and-material contracts is “extremely important” and that work inspection reports should be
prepared each day. These reports should clearly state the amount of work performed that day in
quantitative terms, especially the number of hours worked. Without adequate monitoring, CREC had
no documentation to validate labor and equipment hours billed in contractor invoices. Contract
monitoring is essential to ensure that contractors perform in accordance with the terms, conditions,
and specifications of their contracts.

FEMA’s Public Assistance Debris Management Guide (FEMA 325, April 1999), p. 28, also states
the following:

   •   Time-and-Material contracts should be limited to a maximum of 70 hours of actual
       emergency debris clearance work and should be used only after all available local, tribal and
       State government equipment has been committed.
   •   Time-and-Material contracts may be extended for a short period when absolutely necessary,
       for example, until appropriate Unit Price contracts have been prepared and executed.

In addition, FEMA’s Public Assistance Guide (FEMA 322, October 1999), p. 40, states:

   •   FEMA provides reimbursement for three types of contracts, lump sum, unit price, and cost
       plus fixed fee contracts.
   •   Time and material contracts should be avoided, but may be allowed for work that is
       necessary immediately after the disaster has occurred when a clear scope of work cannot be
       developed.
   •   Applicants must carefully monitor and document contractor expenses.

                                                    3
We considered the 4-week period after the ice storm occurred on January 30, 2002, to be the
“emergency period” because power was not restored to all of CREC’s customers until February 27,
2002. We concluded that the lack of power constituted exigent circumstances that could have
warranted the use of non-competitive, time-and-material type contracts because CREC likely did not
have time to develop a clear scope of work until all power was restored.

Under 44 CFR 13.43(a)(2), Remedies for noncompliance, failure to comply with applicable statutes
or regulations can result in the disallowance of all or part of the costs of the activity or action not in
compliance. Although CREC did not follow procurement standards during the emergency period
that are required even when exigent circumstances exists (e.g., justify the use of time-and-materials
rates, negotiate profit separately, perform a cost analysis, or monitor contract performance), we did
not question contract costs incurred during the 4-week emergency period on the basis of improper
procurement procedures. However, we did question the $1,802,562 of contractor costs incurred after
the emergency period because, after CREC restored power to its customers, it should have solicited
competitive bids for the remaining disaster work under lump sum, unit price, or cost plus fixed fee
contracts. Instead, CREC continued to use non-competitive time-and-material contracts until May
23, 2003, 15 months after the power was fully restored on February 27, 2002.

Officials from CREC stated that ODCEM did not instruct them on proper federal procurement
standards. According to 44 CFR 13.37(a)(2), states are responsible for ensuring that subgrantees are
aware of requirements imposed upon them by federal statute and regulation. Further, 44 CFR
13.40(a) requires grantees to monitor subgrant supported activities to assure compliance with
applicable federal requirements. CREC’s lack of compliance with federal procurement standards
clearly demonstrates that ODCEM did not adequately monitor CREC’s activities under the subgrant.

       Recommendations:

We recommend that the Regional Director, FEMA Region VI:

   1. Disallow $1,802,562 of ineligible contracting costs.

   2. Require the Oklahoma Department of Civil Emergency Management to develop, document,
      and implement procedures for future disasters to: (a) provide subgrantees guidance on federal
      regulations, standards, and guidelines related to procurement and (b) monitor subgrantees to
      ensure compliance with those federal regulations, standards, and guidelines.

Finding B: Ineligible Materials Costs

CREC claimed $1,009,255 for materials used in Project 588. Of this amount, $72,762 was ineligible
because CREC valued costs for some of the materials used in a manner inconsistent with its
established accounting practices. Office of Management and Budget (OMB) Circular A-122,
Attachment A, paragraph A.2(c) and (d), states that to be allowable under an award, costs must be
accorded consistent treatment and must be consistent with policies and procedures that apply
uniformly to both federally financed and other activities of the organization.

CREC’s established accounting practice was to cost materials at an average unit price developed
from cumulative procurement history. CREC used this established practice for the majority of

                                                    4
material costs claimed, but arbitrarily claimed actual costs for some materials even though the
average unit purchase price history was available. Therefore, for the materials claimed at actual cost,
we questioned the $72,762 difference between actual cost and average unit price cost.

       Recommendation:

We recommend that the Regional Director, FEMA Region VI:

   3. Disallow $72,762 of ineligible material costs.




                                                   5
              DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOW-UP

We provided a discussion draft to CREC, ODCEM, and FEMA officials on April 13, 2005, and
discussed the results of the audit with these officials on April 20, 2005. We revised the draft report
to include comments made during the exit conference.

Please advise this office by August 15, 2005, of the actions taken or planned to implement our
recommendations. Please include target completion dates for any planned actions.

If you have any questions concerning this report, please contact me at (940) 891-8900. The major
contributors to this report were Paige Hamrick, Stuart Weibel, and Rebecca Rodriguez.




                                                   6
                                                                 EXHIBIT

                   Schedule of Projects
          Central Rural Electric Cooperative, Inc.
          FEMA Disaster Number 1401-DR-OK


Project   Category      Amount         Amount         Finding
Number    Of Work       Claimed       Questioned     Reference

Large
 588         F           $4,727,622     $1,472,785     A, B
 585         A              587,951        402,539      A
 587         B              133,926              0
Total                    $5,449,499     $1,875,324




                             7
